The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
OFFICE OF INSPECTOR GENERAL




         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                     WASHINGTON, DC 20436



December 19, 2012                                                   IG-KK-022

Chairman Williamson:

This memorandum transmits the Management Letter Report (OIG-ML-13-06) from the audit of
the Commission’s financial statements for fiscal year 2012. We contracted with the independent
certified public accounting firm, Castro & Company LLC, to conduct the audit. The
management letter discusses matters involving internal control that the auditors identified during
the audit but were not required to be included in the audit reports.

A draft of the letter was provided to you for comment and your comments are included in their
entirety with the report.

The Management Letter Report contains two recommendations for corrective action. In the next
30 days, please provide me with your management decisions describing the specific actions
you will take to implement each recommendation.

Thank you for the courtesies extended to the both Castro & Company and my staff during this
audit.

Sincerely,




Philip M. Heneghan
Inspector General
U.S. INTERNATIONAL TRADE COMMISSION




  Fiscal Year 2012 Financial Statement Audit

         Management Letter Report
1. Improvements in the Internal Controls over the Cash Disbursement Process are Needed

During our testing to assess management controls and compliance with applicable laws, regulations,
and procedures relative to cash disbursement procedures, the following conditions were noted:

   x   We noted that in multiple instances, disbursements were made more than thirty days after the
       invoice was received by Finance. Additionally, documentation in the file did not provide an
       explanation to support why the invoices were not paid within 30 days.

   x   We noted that in multiple instances, invoices were approved for payment more than 30 days
       after the receipt of goods and services by the COR.

   x   We noted that three purchase card holders did not have an updated training certificate on file.
       No additional exceptions related to the proper use of the governments cards were noted as a
       result of our testing of these three (3) samples.


ITC did not follow its written policies and procedures for the processing of invoices; causing
individuals responsible for reviewing and approving the invoice (e.g., the Contracting Officer’s
Representative, Contracting Officer, and the Finance staff) to process invoices in an untimely
manner. In addition, there is not a process for escalating untimely responses from CORs to their
Supervisors when they are unresponsive.

Government Accountability Office (GAO) Standards of Internal Control in the Federal Government
states:

       Internal control and all transactions and other significant events need to be clearly
       documented, and the documentation should be readily available for examination. The
       documentation should appear in management directives, administrative policies, or
       operating manuals and may be in paper or electronic form. All documentation and
       records should be properly managed and maintained.

5 Code of Federal Regulation (CFR) § 1315.4, Prompt payment standards and required notices to
vendors, states the following relating to the Prompt Payment Act:

       (c) Review of invoice. Agencies will use the following procedures in reviewing
       invoices: (1) Each invoice will be reviewed by the designated agency office as soon
       as practicable after receipt to determine whether the invoice is a proper invoice as
       defined in § 1315.9(b); (2) When an invoice is determined to be improper, the agency
       shall return the invoice to the vendor as soon as practicable after receipt, but no later
       than 7 days after receipt…”

       …f) Starting the payment period. The period available to an agency to make timely
       payment of an invoice without incurring an interest penalty shall begin on the date of
       receipt of a proper invoice…

       (g) Determining the payment due date. (1) Unless otherwise specified, the payment is
       due either: (i) On the date(s) specified in the contract; (ii) In accordance with
                                                  2
       discount terms when discounts are offered and taken (see § 1315.7); (iii) In
       accordance with Accelerated Payment Methods (see § 1315.5); or (iv) 30 days after
       the start of the payment period as specified in paragraph (f) of this section…

5 CFR § 1315.10, Late payment interest penalties states:

       (a) Application and calculation. Agencies will use the following procedures in
       calculating interest due on late payments: (1) Interest will be calculated from the day
       after the payment due date through the payment date at the interest rate in effect on
       the day after the payment due date; (2) Adjustments will be made for errors in
       calculating interest; (3) For up to one year, interest penalties remaining unpaid at the
       end of any 30 day period will be added to the principal and subsequent interest
       penalties will accrue on that amount until paid.


By not following written policies and procedures for the processing of invoices, specifically, the
untimely approval of invoices by responsible personnel, ITC increases the risk that it is not
complying with applicable laws and regulations, such as the Anti-Deficiency Act, FAR and the
Prompt Payment Act. In addition, ITC increases the likelihood of unnecessarily paying interest
which could be deemed a wasteful use of appropriated funds.

Recommendations:

In the prior fiscal year, we recommended to ITC management to establish and implement procedures
for a quarterly review of the late payments reports and determine the causes of late payments, and to
develop and implement a process to mitigate the causes of late payments. ITC management has
taken actions to implement the three management decisions related cash disbursements, the final
management decision was implemented on September 11, 2012. This last management action was to
develop new procedures; therefore, because it will take time to determine whether the new
procedures are effective, we are not making additional recommendations at this time.


2. Improvements in the Internal Controls over the Processing of Employee Information into
   the Payroll System are Needed

During our testing to assess management controls and compliance with applicable laws, regulations,
and procedures relative to the payroll procedures, the following conditions were noted:

   x   We noted that the incorrect FEGLI election was entered into the payroll system for one
       employee which caused an incorrect amount to be deducted from the employee’s pay.

   x   We noted that the FEGLI deduction for one employee was incorrectly calculated; therefore,
       the incorrect amount was being deducted from the employee’s pay.

The incorrect FEFLI election was caused by oversight from an ITC personnel involved in the payroll
process which was not caught or timely corrected by a supervisor. In addition, ITC does not perform
quality control procedures over deductions calculated by its payroll service provider to ensure
amounts calculated and deducted from employees’ pay are correct.
                                                  3
Office of Management and Budget Circular A-123, Management’s Responsibility for Internal
Control, states:

        Internal control also needs to be in place over information systems – general and
        application control…Application control should be designed to ensure that
        transactions are properly authorized and processed accurately and that the data is
        valid and complete. Controls should be established at an application’s interfaces to
        verify inputs and outputs, such as edit checks.

By not ensuring proper controls are maintained, including performing quality control procedures
over information processed by its service provider, ITC increases its risk that payroll deductions are
incorrectly reported, and ultimately causing Payroll data to be over or understated.

Recommendations:

We recommend that ITC’s management:

     1. Creates quality control monitoring procedures to verify calculations for payroll deductions
        for its employees that are entered by its service provider into the payroll system are correct.

     2. Modify its current payroll policies to require employee elections entered by an employee and
        verified and authorized by management personnel.


3.   Parking Subsidy Program

As originally reported in the fiscal year (FY) 2010 Independent Auditor’s Report on Compliance
with Laws and Regulations, ITC does not have independent statutory or delegated authority to
procure space and facilities to provide for employee parking; therefore, ITC’s program provides
benefits that do not fully comply with the requirements of GAO Principles of Federal Appropriations
Law. Towards the end of FY 2011, ITC formally requested for GAO to make a determination on
ITC’s past parking program, and to approve its new proposed program.

GAO Stated in its decision dated August 3, 2012 (B-322337), “Generally, we will not object to an
agency’s determination that subsidizing parking permits for its employees is necessary in order to
avoid significant impairment to the agency’s operating efficiency. However, such determination
should reflect consideration of current workplace realities and public policies. The Commission’s
2001 administrative determination and its Proposed Parking Order do not address what we believe
are some important factors. We suggest that the Commission consider its determination in light of
these factors, and that the Commission articulate the consequences for operating efficiency if the
agency were not to subsidize the parking permits.”

Based on GAO’s recommendation, ITC’s management wrote a memorandum to the Chairman on
October 2, 2012 to recommend for ITC to continue its parking program into FY2013 in order to
allow management time to gather information and report on its findings. ITC set a target date of
May 31, 2013 for the Chairman to decide the significant impairment issue, including specifying any

                                                   4
changes to the subsidized parking program needed by the Chairman’s decision. The Chairman
approved the management decision with the completion target date of May 31, 2013.

Recommendations:

Two years ago the Inspector General made two recommendations related to ITC’s Parking
Program. The actions described above were taken as a part of the management decisions made
based on those recommendations. The final action is not expected to be completed until May 31,
2013; therefore, we do are not making additional recommendations at this time.


Status of Prior Year Management Letter Comments

The FY 2011 Management Letter Report identified the following control deficiencies:


                  Finding
           Identified in FY 2011                     Status in FY 2012
         Cash Disbursements           Partly Resolved, Untimely Approval of Invoices
                                      and Late Payments Repeat Condition
         Prepayments                  Resolved


Management Response:




                                                5
Chairman




              UNITED STATES INTERNATIONAL TRADE COMMISSION

                                 WASHINGTON, DC 20436

                                      December 4, 2012

Thomas Castro, Partner
Castro and Company, LLC
2121 Eisenhower Avenue, Suite 606
Alexandria, VA 22314


Dear Mr. Castro,

I am in receipt of Castro & Company’s draft Fiscal Year 2012 Financial Statement Management
Letter Report, dated November 8, 2012. I appreciate the opportunity to review the report and
provide comments.

Castro & Company’s report found that the Commission would benefit from improvement in its
internal controls over the cash disbursement process and the processing of employee information
in its payroll system. Moreover, Castro & Company made no judgments on the Commission’s
compliance with the laws and regulations as they relate to the Commission’s parking subsidy
program, as final action is not expected until May 31, 2013.

We agree with the findings and recommendations put forth by Castro & Company, and the
Commission will institute management decisions that address the report’s specific
recommendations.


                                                   Sincerely,




                                                   Irving A. Williamson
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
